Office of Inspector General

    Audit Report

 FAA’S EFFORTS TO TRACK AND
 MITIGATE AIR TRAFFIC LOSSES
OF SEPARATION ARE LIMITED BY
     DATA COLLECTION AND
IMPLEMENTATION CHALLENGES
    Federal Aviation Administration

      Report Number: AV-2013-046
     Date Issued: February 27, 2013
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:       ACTION: FAA’s Efforts To Track and Mitigate                                        Date:    February 27, 2013
               Air Traffic Losses of Separation Are Limited by
               Data Collection and Implementation Challenges
               Report No. AV-2013-046
  From:        Jeffrey B. Guzzetti                                                             Reply to
                                                                                               Attn. of:   JA-10
               Assistant Inspector General
                for Aviation and Special Program Audits

    To:        Federal Aviation Administrator

           The Nation’s air traffic controllers play an important role in maintaining the
           world’s safest air transportation system. Yet, losses of standard separation—when
           aircraft do not maintain the minimum distance apart—remain a significant safety
           concern. In January 2011, an operational error—a loss of standard separation
           caused by air traffic controllers 1—led to a near mid-air collision between a
           commercial airliner and two military aircraft near New York City. According to
           the National Transportation Safety Board (NTSB), who investigated the incident,
           at their closest point, the aircraft came within a mile of each other. According to
           Federal Aviation Administration (FAA) statistics, the number of reported
           operational errors increased by more than 50 percent between fiscal years 2009
           and 2010.

           Concerned with this increase, the Senate Committee on Commerce, Science, and
           Transportation and the Subcommittee on Aviation Operations, Safety, and
           Security requested that we review FAA’s ongoing efforts to assess operational
           errors and mitigate their risks. We also received a similar request from the House
           Committee on Transportation and Infrastructure. Accordingly, we
           (1) identified the reasons for the increase in losses of separation—specifically
           operational errors—from fiscal years 2009 to 2010; (2) assessed the effectiveness
           of FAA’s policies and processes to collect, investigate, and report separation
           losses; and (3) evaluated the effectiveness of FAA’s policies and processes to
           mitigate the risk of separation losses.

           1
            Most losses of separation are classified as either an operational error (if the controller’s actions caused the loss) or a
           pilot deviation (if the pilot’s actions caused the loss).
                                                                                                                           2


We conducted this audit in accordance with generally accepted Government
auditing standards. Exhibit A details our scope and methodology. Exhibit B lists
the organizations we visited or contacted.

RESULTS IN BRIEF
According to FAA, the dramatic increase in reported operational errors between
fiscal years 2009 and 2010 was mostly due to increased reporting through
programs such as the Air Traffic Safety Action Program (ATSAP) 2 and the Traffic
Analysis and Review Program (TARP), an automated system to detect losses of
separation at air traffic terminal facilities. 3 However, we found that the increase in
reported errors was linked, in part, to a rise in actual errors rather than increased
reporting. For example, FAA’s air route traffic control centers (ARTCC) 4—which
have had an automated system in place for years to detect and investigate reported
errors—had a 39 percent increase in operational errors during the same period. In
addition, we identified other contributing factors to the rise in the number of
operational errors. For example, almost one-quarter of the increase is due to the
revocation of a separation waiver at the Southern California Terminal Radar
Approach Control (TRACON) that led to the reclassification of many routine
approach and landings as operational errors. 5

FAA’s new policies and procedures for collecting, investigating, and reporting
separation losses have the potential to reduce losses and improve reporting, but
their effectiveness is limited by incomplete data and implementation challenges.
Under FAA’s new policies, FAA uses TARP to detect losses, then examines the
risk of these losses, and identifies corrective actions. FAA’s Air Traffic
Organization (ATO) has three regional air traffic Service Areas that review TARP
alerts to determine whether a valid loss of separation occurred. However, FAA
currently reviews only a portion of all TARP alerts. In addition, ATSAP data
indicate that more operational errors might be occurring than those that FAA
reports. As we reported last year, 6 approximately 50 percent of all ATSAP event
reports 7 are classified as “unknown,” which means that the event captured in the

2
  ATSAP is a voluntary, non-punitive program in which controllers can self-report safety instances and concerns. In
July 2012, we issued a separate report on FAA’s implementation of ATSAP (OIG Report Number 2012-152, “Long-
Term Success of ATSAP Will Require Improvements in Oversight, Accountability, and Transparency” July 19, 2012).
OIG reports are available on our Web site at http://www.oig.dot.gov/.
3
  Terminal facilities include airport traffic control towers and Terminal Radar Approach Control (TRACON) facilities.
Air traffic control towers separate aircraft on the airport surface and guide aircraft as they take off and land. TRACONs
guide aircraft as they approach or leave airspace surrounding airports to about 40 miles away.
4
  ARTCC guide aircraft flying at high altitudes, generally above 17,000 feet.
5
  The waiver allowed aircraft landing simultaneously to be closer than normally allowed. Air Traffic Safety Oversight
Service revoked the waiver because it considered it unsafe, and subsequently, reclassified aircraft landings that
occurred under the waiver as operational errors.
6
  OIG Report Number 2012-152, “Long-Term Success of ATSAP Will Require Improvements in Oversight,
Accountability, and Transparency,” July 19, 2012.
7
  Event reports identify actual or potential losses of separation, including operational errors, or other situations that may
degrade air traffic safety.
                                                                                                                      3


confidential ATSAP report was not captured in FAA’s Air Traffic Quality
Assurance (ATQA) database, 8 and therefore, unknown to the air traffic facility
management. Any losses of separation included in these unknown reports may not
be in FAA’s official count. At the same time, FAA’s training for controllers and
managers on the new policies and procedures has been limited. Facility officials
said that while FAA training on new procedures was helpful for explaining the
reasons for the changes to the procedures, it failed to explain the technical aspects
of how errors should be reported. For example, facility officials said they received
limited training on how to use a new database to store data on losses of separation.
Managers at 15 of 25 of the air traffic facilities we visited 9 also raised concerns
that the three ATO Service Areas may not have enough staff or knowledge of local
flight procedures and airspace to effectively investigate operational errors.

Recently, FAA developed corrective action plans to mitigate high-risk separation
loss events—such as an aircraft executing an unexpected go-around 10 and aircraft
arriving at the same altitude on parallel runways. However, because the Agency
has not completed implementation of the action plans, it is too early to determine
whether the plans will reduce the number of separation losses. In addition, FAA’s
corrective action plans do not include all safety risks identified by FAA and will
not address all losses of separation that air traffic facility officials consider to be
high risk. For example, FAA’s process may not consider an instance of converging
aircraft prevented from collision by Traffic Collision Avoidance Systems
(TCAS) 11 to be a high-risk event if over 66 percent of the required separation was
maintained. However, facility officials stated this type of event should be
considered high risk regardless of the amount of separation loss because the
controller introduced the risk of collision.
We are making recommendations to improve FAA’s policies and processes for
identifying and mitigating separation losses.

BACKGROUND
At any given time, there are roughly 7,000 aircraft occupying U.S. airspace. To
help maintain safe distances between aircraft, while under the control of air traffic
controllers, FAA established minimum separation standards based on the aircraft’s
phase of flight and size. Controllers are responsible for providing instructions to
pilots.
8
  Prior to January 30, 2012, ATQA contained reports of losses of separation. After this date, FAA began to replace
ATQA with the Comprehensive Electronic Data Analysis and Reporting (CEDAR) database.
9
  These 25 facilities include: 9 ARTCCs, 11 TRACONs, 2 air traffic control towers, and 3 ATO Service Areas.
Nationwide, there are a total of 21 ARTCCs (within the continental U.S), 28 TRACONS, 513 air traffic control towers,
and 3 ATO Service Areas. Our selection criteria for facilities we visited are in Exhibit A. A listing of the facilities
visited is in Exhibit B.
10
   A go around is an aborted landing of an aircraft on final approach to the runway.
11
   An onboard TCAS issues advisories for pilots to take evasive actions when the system detects a potential collision
with another aircraft.
                                                                                                                           4


We have been reporting on separation losses for over a decade. Historically,
FAA’s oversight of operational error self-reporting has been problematic. Our
previous work (see exhibit C) on operational errors has repeatedly raised concerns
that nearly 300 FAA terminal facilities relied solely on controllers to self-report
errors. In some cases, we found that the self-reporting process was subject to
intentional manipulation. 12 More recently, in 2009, we found that inadequate
guidance and insufficient staff contributed in part to control and oversight
weaknesses in FAA’s process for reporting and investigating losses.

In response to our reports, FAA has undertaken a number of efforts to provide
better oversight of and minimize separation losses, including the following:

• FAA implemented the Risk Analysis Process (RAP), a new risk-based
  approach to address losses of separation. RAP consists of a panel of at least
  two controllers and a pilot. Three panels, one in each ATO Service Area,
  review separation losses for events in which pilots maintain less than
  66 percent of required separation. For example, if aircraft are required to be
  separated by 3 miles, a separation of less than 2 miles (66 percent of 3 miles)
  would be reviewed under RAP. FAA reviews various risk factors, including
  the severity and repeatability of the event, and identifies the highest risk
  events 13 to develop a list of the top five highest risk types of separation losses,
  along with corrective actions to address such hazards.

• FAA revised its process for tracking high-risk errors. Previously, FAA
  tracked operational errors using a severity rating of A, B, or C—with A being
  the highest or most severe risk and C the lowest. The rating was based on the
  proximity of the aircraft to one another. 14 As a performance measure, prior to
  fiscal year 2011, FAA reported the rate of A and B errors per every thousand
  operations. However, in fiscal year 2011, FAA developed a new metric, the
  System Risk Event Rate (SRER), based on the high-risk events identified in
  RAP. This metric identifies the ratio between separation losses identified as
  high risk to all losses of separation. FAA’s goal is to limit the rate of high risk
  of standard separation losses to 20 or fewer for every 1,000 standard separation
  losses.


12
   For example, in both 2005 and again in 2008, our investigations at the Dallas/Fort Worth TRACON found that air
traffic managers intentionally misclassified operational errors as either pilot deviations or “non-events” to reduce the
number of operational errors reported at that location. Further, FAA’s oversight processes failed to uncover this
practice despite FAA’s prior assurances that it would not allow operational errors to go unreported.
13
   Based on a risk assessment model used by the Eurocontrol, the European Organization for the Safety of Air
Navigation.
14
   An “A” rating (high/severe risk) meant that less than 34 percent of separation standards were met; a “B” rating
(moderate risk) at least 34 and less than 75 percent of separation standards were met; and a “C” rating (low risk)
75 percent or more of separation standards were met, but the horizontal and vertical separation is less than 90 percent.
Proximity events are minor losses of separation between two aircraft where 90 percent or greater of the required
separation is maintained.
                                                                                                                       5


• FAA issued orders changing its process for identifying, investigating, and
  reporting losses of separation on January 30, 2012. One of the fundamental
  differences under the new orders is FAA’s decision to move the responsibility
  for investigating losses of separation from specific air traffic facilities (where
  the losses in question occurred) to three ATO Service Areas. 15

VARIOUS FACTORS CONTRIBUTED TO THE DRAMATIC
INCREASE IN REPORTED OPERATIONAL ERRORS
In the years leading up to fiscal year 2009, reported operational errors remained
relatively stable (see figure 1). However, between fiscal years 2009 and 2010,
reported operational errors increased 53 percent, from 1,234 to 1,887. FAA’s
recent numbers show a rise in the most serious Category A errors—from 37 in
fiscal year 2009 to 43 in fiscal year 2010, and again to 55 in fiscal year 2011.
Also, for fiscal years 2008, 2009, and 2010, FAA exceeded its target limits for the
number of category A and B operational errors per million operations. 16 In
addition, FAA did not meet its fiscal year 2011 goal of reducing high-risk events
to no more than 20 per 1,000 separation losses; instead, the rate was 24.5 per
1,000, or 23 percent higher than its goal.

Figure 1. Operational Errors for Fiscal Years 2006 Through 2011
                            2,000
                            1,900
                                                                                                 1,887      1,895
                            1,800
 Total Operational Errors




                            1,700
                            1,600
                            1,500
                                         1,338        1,391        1,349
                            1,400
                            1,300
                                                                                     1,234
                            1,200
                            1,100
                            1,000
                                    FY 2006      FY 2007      FY 2008      FY 2009           FY 2010     FY 2011

Source: OIG analysis of FAA data.

15
   FAA was prompted in part by our April 2008 recommendation to remove the quality assurance function at all Air
Traffic Control facilities from the supervision of facility management. We made this recommendation because we
reported in 2005 and 2008 that Dallas/Ft. Worth TRACON intentionally misclassified operational errors. See OIG
Report No. CC-2007-083, “OIG Investigation-Alleged Cover-up of Operational Errors at DFW TRACON,” April 18,
2008.
16
   In fiscal year 2008, FAA goal was 2.15 A and B operational errors per million operations and the reported number
was 2.25. In fiscal year 2009, the goal was 2.10 and the reported number was 2.44. In fiscal year 2010, the goal was
2.05 and the reported number was 3.32.
                                                                                              6


A large percentage of the increases in operational errors reported between fiscal
years 2009 and 2010 occurred at the same 10 facilities—60 percent of the total
increase of 653 errors (see table 1). TRACONs had the largest increase in reported
errors—86 percent.

Table 1. Ten Air Traffic Facilities With the Largest Increase in
Operational Errors From Fiscal Year 2009 to Fiscal Year 2010
Facility                                                            FY 2009   FY 2010    Percent
                                                                                        Increase
Southern California TRACON                                              33       189      473%
Central Florida TRACON                                                   5        24      380%
Houston TRACON                                                          11        44      300%
Miami ARTCC                                                             15        30      100%
Potomac TRACON                                                          21        41        95%
Dallas/Fort Worth TRACON                                                84       143        70%
Charlotte Douglas International Airport Air Traffic Control Tower       20        34        70%
New York TRACON                                                         74       119        61%
New York ARTCC                                                          25        40        60%
Atlanta ARTCC                                                           35        50        43%
Total                                                                  323       714      121%

Source: OIG analysis of FAA data.

According to FAA, increased ATSAP reporting contributed to the 53 percent
increase in reported operational errors between fiscal years 2009 and 2010. While
non-punitive reporting may encourage more controllers to report errors, we
identified other factors that contributed to the increase. Additionally, managers
and controllers we spoke with at 7 of the 10 facilities attributed the increases to
other factors. These factors include the following:

•   ARTCC automated reporting indicates an increase in actual errors. The
    number of errors reported at FAA’s ARTCCs—which have had a full-time
    detection tool in use for many years—also increased from fiscal year 2009 to
    2010 (from 353 to 489, an increase of 39 percent). This suggests that a portion
    of the overall increase is due to more errors actually occurring, rather than
    being attributable entirely to improved reporting.

•   FAA reclassified 147 aircraft landings guided by the Southern California
    TRACON as operational errors. Originally, the landings were not classified
    as errors because the TRACON was operating under a waiver that allowed
    aircraft landing simultaneously to be closer than normally allowed. In 2010,
    the Air Traffic Safety Oversight Service revoked the waiver, citing safety
                                                                                                               7


    concerns, and subsequently reclassified aircraft landings that occurred under
    the waiver. This accounted for 23 percent of the increase.

•   Improved radar and voice replay tools have facilitated incident reviews,
    allowing them to more readily determine whether an operational error
    occurred. Fewer errors may have been discovered under prior incident reviews
    because of the difficulty obtaining data.

•   FAA has placed additional emphasis on ensuring correct phrasing when
    pilots read back controllers' instructions. For example, FAA officials stated
    that greater emphasis has been placed on ensuring correct readbacks for visual
    separation procedures. If the controller fails to catch and correct inadequate
    readbacks, the event is reported as an operational error. Previously, these types
    of events were not reported as rigorously.

EFFECTIVENESS OF FAA’S POLICIES AND PROCEDURES TO
COLLECT, INVESTIGATE, AND REPORT SEPARATION LOSSES
IS LIMITED
FAA’s policies and procedures to identify and report on losses of separation are
limited by incomplete data and implementation challenges. For example, FAA
lacks an accurate baseline of the actual total number of separation losses that
occur. In addition, facility managers expressed concerns that FAA’s training is not
comprehensive in explaining how to use the new operational error reports database
under the new procedures. Facility staff are also concerned about FAA’s decision
to move the responsibility for investigating errors to ATO Service Areas, which
may not have adequate staffing levels and familiarity of each facility's operations.

Data Collection Deficiencies and Reporting Inconsistencies Limit
FAA’s Efforts To Track Separation Losses
FAA does not have an accurate baseline of separation losses due to gaps in TARP
and ATSAP reporting and inconsistent classifications of losses. A complete
picture of losses that occur is critical for FAA to track, fully address, and mitigate
the risk of separation losses in the National Airspace System.

In 2009, we recommended that FAA fully implement TARP at its air traffic
facilities. 17 Although TARP has been installed and running at air traffic terminal
facilities, 18 FAA does not analyze and report all separation losses that are
automatically flagged by TARP. TARP provides alerts when a potential loss of
separation occurs. Then, FAA must investigate the TARP alerts to determine

17
   OIG Report No. AV-2009-045, “FAA’s Process for Reporting and Investigating Operational Errors”, March 24,
2009.
18
   Terminal facilities are TRACONs and airport control towers.
                                                                                                                           8


whether an actual loss of separation happened. FAA Service Area staff only
investigate losses of separation of less than 70 percent. 19

In addition, ATSAP data indicate that more losses of separation might be
occurring than those that are known to facility management. As we reported in
2012, 20 approximately 50 percent of all ATSAP event reports 21 are classified as
“unknown,” which means that the event captured in the confidential ATSAP
report was not captured in FAA’s Air Traffic Quality Assurance (ATQA)
database, 22 and therefore, unknown to the air traffic facility management. Any
losses of separation included in these unknown reports may not be in FAA’s
official count.

Inconsistencies in FAA’s classification of separation losses further reduce the
reliability of the Agency’s count of operational errors and runway incursions. For
example, in fiscal year 2011, there were a total of 1,895 reported operational
errors, a negligible increase from the 1,887 reported in fiscal year 2010. However,
the fiscal year 2011 count does not include 157 events classified as runway
incursions 23 that occurred in August 2011 at Charlotte-Douglas International
Airport. FAA reclassified the incursions as non-events due to its interpretation of
the definition of a runway incursion and the judgment by senior Agency officials
that safety was not compromised. 24 Runway incursions are considered to be
operational errors when an air traffic controller is the cause. Therefore, had the
classification to non-events not occurred, the fiscal year 2011 operational error
count would have increased by 9 percent of the number of reported errors the
previous year.

Staffing Challenges Undermine FAA’s Efforts To Investigate
Separation Losses
FAA faces significant staffing challenges with implementing its new procedures
for investigating separation losses. Prior to January 30, 2012—when FAA
implemented the new procedures—investigations were conducted at the Nation’s
more than 300 air traffic facilities. Therefore, conservatively, at least 300 staff
conducted investigations on at least a part-time basis. With the implementation of

19
   Losses of separation in which less than 70 percent of the separation was maintained.
20
   OIG Report Number 2012-152, “Long-Term Success of ATSAP Will Require Improvements in Oversight,
Accountability, and Transparency,” July 19, 2012.
21
   Event reports include identify actual or potential losses of separation, including operational errors, or other situations
that may degrade air traffic safety.
22
   Prior to January 30, 2012, ATQA contained reports of losses of separation. After this date, FAA began to replace
ATQA with the Comprehensive Electronic Data Analysis and Reporting (CEDAR) database.
23
   The definition of a runway incursion is any occurrence at an airport involving “the incorrect presence of an aircraft,
vehicle, or person on the protected area of a surface designated for the landing or take-off of aircraft.”
24
   The errors involved the continued clearance of 157 take-offs and landings on a runway that was in close proximity to
a disabled commercial airplane that had previously aborted a takeoff and was cleared off the runway onto an adjacent
taxiway for maintenance. A portion of the disabled airplane intruded upon the protected area of the active runway
environment.
                                                                                  9


FAA’s new procedures, the number of personnel investigating losses of separation
has been substantially reduced. Currently, FAA has a total of 16 staff in the three
Service Areas to investigate the high numbers of separation losses that occur.
However, the Agency plans to hire additional staff.

FAA faces substantial staffing challenges in several areas, including:

• Increased workload: Once TARP data from all facilities with TARP are
  reviewed by Service Areas, FAA estimates that an additional 600 to 900
  reports of separation losses will need to be reviewed each day.

• Available tools: FAA has not fully implemented the Digital Audio Legal
  Recorder, which allow staff in the Service Areas to obtain air traffic audio data
  remotely and review audio replays of incidents. Without this automated tool,
  staff must request the facility to send the audio data for each incident to their
  Service Area, which could delay investigations of separation losses. FAA is
  aware of this issue and plans to address it as implementation continues.

•   Training: Some facility officials stated that the FAA training on new
    procedures was helpful for explaining the reasons for the changes to the
    procedures, but failed to explain the technical aspects of how things should be
    done. For example, as part of its new procedures, FAA replaced its previous
    ATQA reporting database with a new database called Comprehensive
    Electronic Data Analysis and Reporting (CEDAR) for completing loss of
    separation reports. Yet facilities received limited training on how to use the
    new database. Additionally, FAA acknowledged that a lack of facility training
    on how to properly complete operational error reports contributed to
    incomplete or inadequate causal data in its ATQA database. In ATQA,
    descriptions in the causal section of these reports often provided limited
    information about the cause of the errors. For example, according to FAA, the
    causal factor called “inappropriate use of displayed data [on aircraft]” was
    identified as the cause in 50 percent of all ATQA reports. This description of
    cause did not always identify the cause of the incident such as a training
    deficiency, fatigue, or a lack of experience.

•   Knowledge of local facility operations: Air Traffic facility officials
    questioned whether the Service Center staff have knowledge of each facility’s
    local procedures and operations such as the expertise and technical knowledge
    related to aircraft routing and altitudes covered by a facility, particularly in
    complex areas in large cities.
                                                                                  10


FAA’S NEW CORRECTIVE ACTION PLANS DO NOT ADDRESS ALL
SAFETY CONCERNS RELATED TO SEPARATION LOSSES
FAA has developed a new strategy to mitigate separation losses—including
implementing corrective action plans to reduce the five highest risk events.
However, FAA does not examine all losses of separation that air traffic officials
considered to be high risk. Facility officials also question the effectiveness of
FAA’s mitigation efforts.

FAA’s Corrective Action Plans Do Not Include Safety Risks and
Causal Factors Identified in Previous FAA Analyses
In fiscal year 2011, FAA developed new corrective action plans to reduce the five
highest risk separation loss events identified through RAP. For example, two of
the top five risk categories involve loss of separation when an aircraft overshoots
the turn to final approach on parallel runways and conflicts with another aircraft.
FAA’s plans to mitigate these risks include the following:

•   limit the turn to final angle of no more than 30 degrees (see figure 2);
•   require altitude separation of at least 1,000 feet prior to application of visual
    separation; and
•   develop airport-specific speed restrictions for final approach courses.
                                                                           11


Figure 2. Example of a Corrective Action Plan Initiative




Source: FAA.

FAA also identified factors contributing to the top five high-risk events (see
table 2).
                                                                                                      12


 Table 2. Overview of Top Five Risk Categories and Corrective
 Action Plans
Top Five Event            Causal Factors                         Key Corrective Action Plan
Category                                                         Initiatives

1. Arrival aircraft       Lack of adequate go around             Each facility must define local
executes an               procedures                             procedures for go arounds.
unexpected go around

2. Arriving aircraft at   Aircraft overshoot the turn to final   Proposal to require aircraft on flight
the same altitude on      and conflict with parallel traffic     paths at right angles to the landing
parallel runways.         same altitude.                         runway to be assigned altitudes at
                                                                 least 1,000 feet apart until visual
                                                                 separation is established.
3. Aircraft at an         (a) Breakdown of communications        Investigate the feasibility of using
altitude other than                                              "Mode S" technology to allow
expected.                                                        controllers to view the altitudes
                          (b) Incorrect data block altitudes
                                                                 pilots have entered into aircraft
                          prevent conflict alert activation
                                                                 systems.
4. Aircraft in            Controller Coordination: Aircraft      Develop training to address
unexpected position       transferred to another controller on   coordination.
resulting in a loss of    route or at different altitude than
separation.               expected.
5. Aircraft vectored at   Current air traffic procedures         Proposed procedure changes to:
speed and/or angle of     (7110.65) allow aircraft to turn to    (1) require headings that allow an
intercept, leading to     final approach at excessive speed      intercept angle to final approach of
loss of separation.       and excessive intercept angle.         no greater than 30 degrees, and (2)
                                                                 require development of local speed
                                                                 restrictions for facilities that vector to
                                                                 final approach on parallel runways.

 Source: FAA.

 However, FAA’s corrective action plans, which were finalized in July 2011, do
 not address previously identified causal factors, trends based on the factors, or
 follow-up actions to address them. In particular, in June 2011, RAP identified
 perception, memory, training, and experience as the top causal factors for high-
 risk events. Also, the RAP panel identified training and on-the job training as key
 corrective action areas and recommended FAA:

 • Develop specific training requirements and curriculum to address poor
   recovery. Of all events analyzed through RAP, 41 percent involved poor
   recovery from a loss of separation. The RAP panel also found over half of the
   recovery efforts worsened the situation, causing the aircraft to be in closer
   proximity. Furthermore, RAP determined that of the 87 most severe risk
   analysis events, 76 (or 87 percent) involved poor air traffic control recovery.
                                                                                                                  13


• Conduct root cause analyses and determine the best way to address
  incidents that occur during on-the-job training. These incidents accounted
  for 10 percent of all analyzed events.

FAA chose to exclude these causal factors (perception, memory, training, and
experience) and trends (poor recovery and on-the-job training) from the corrective
action plans because it considered them to be “contextual.” However, a 2005 study
published by FAA 25 found that the majority (86 percent) of operational errors
reviewed were “skill-based errors,” which tend to be “the result of habitual actions
associated with an individual’s attention, memory, and/or execution technique.”
The study’s finding is similar to causal factors identified by FAA in its 2011 RAP
document. Also, the trend of poor recovery was present in the majority of the most
severe risk analysis events reviewed.

Facility Officials Question the Effectiveness of Mitigation Efforts
Facility officials questioned the overall effectiveness of FAA’s corrective action
plans. While the new air traffic procedures proposed in the plans are reviewed for
risk through the Safety Management System 26 (SMS) process, facility officials had
concerns with the proposed procedures, as shown in table 3 below.

Table 3. FAA Proposals To Mitigate Losses of Separation and Facility
Officials’ Concerns With Them
FAA Proposals for Facilities                               Facility Officials’ Concerns
Determine facility-specific speed requirements             Controllers should let aircraft fly the most
to reduce the potential of an aircraft                     efficient approach, unless speed control for
overshooting a runway                                      separation is required.
Determine the feasibility of the potential benefits FAA must consider the impact of this
from automatically relaying additional altitude     information on controller workload.
information from the aircraft’s autopilot to
controllers
Define procedures for go-arounds and missed                Controllers must assess the situation and make
approaches                                                 the best decision based on established
                                                           procedures and other traffic. Facilities cannot
                                                           plan for every scenario, because varying traffic
                                                           flows can affect the best option for controllers.
Source: FAA and OIG analysis.

Finally, air traffic facility officials are concerned that FAA’s RAP, SRER, and
corrective action plans do not include events they consider to be high-risk, such as
those for which the loss of separation was more than 66 percent. For example,
converging aircraft prevented from colliding by the Traffic Collision and

25
   “Examining ATC Operational Errors Using the Human Factors Analysis and Classification System,”
DOT/FAA/AM-05/25, FAA Office of Aerospace Medicine, December 2005.
26
   FAA defines the Safety Management System as an integrated collection of processes, procedures, policies, and
programs that are used to assess, define, and manage the safety risk in providing ATC and navigation services.
                                                                                14


Avoidance System (TCAS) could be a high-risk event regardless of the degree of
separation loss. TCAS, an automated cockpit avoidance system, operates
independently from the ground-based Air Traffic Control system and serves as a
last line of defense for preventing mid-air collisions. In other words, use of the
TCAS system could indicate a high-risk event because it is an event in which the
controller failed to separate aircraft and introduced the risk of collision. Yet
FAA’s mitigation plans do not include all of these events.

CONCLUSION
Reported losses of separation continue to be a major air safety concern,
particularly in light of dramatic increases in their occurrence. While FAA recently
issued new policies and processes for investigating and mitigating separation
losses, a lack of a reliable baseline creates substantial challenges for FAA to
ensure these new policies and processes are effective. Until FAA takes action to
determine the true magnitude of operational errors, assess their potential safety
impacts, identify their root causes, and align adequate staffing for oversight, the
risk of separation losses will remain a safety concern.

RECOMMENDATIONS
To improve its policies and processes for collecting, investigating, and reporting
separation losses, and mitigating their risks, we recommend that FAA:

1. Include all losses of separation that are reported under ATSAP, but unknown
   to air traffic facilities, in its official count of such events.

2. Determine the level of staff and expertise needed at the ATO Service Areas to
   effectively implement ATO’s new Orders on investigating losses of separation,
   audit all TARP data, and initiate actions to fill those requirements.

3. Determine the extent to which ATO has successfully implemented its new
   orders (effective January 2012). This determination should include reviews of
   the quality of separation loss investigation reports, effectiveness of training,
   and additional actions or resources needed.

4. Include high-risk TCAS warning events in its Risk Analysis Process and
   System Risk Event Rate when the separation between two converging aircraft
   is maintained at 66 percent or more.

5. Develop actions to mitigate the following situations identified in the Risk
   Analysis Process: (1) poor recovery from loss of separation and (2) losses of
   separation involving on-the-job training.
                                                                                                                 15


6. Utilize analysis of the causal and contributory factors derived in the Risk
   Analysis Process—including perception, memory, and training—to identify the
   underlying reasons for separation losses and develop mitigation strategies to
   address those causes.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with a draft copy of this report on December 14, 2012, and
received FAA’s response on January 25, 2013. FAA’s response is included in its
entirety in the appendix to this report. In its response, FAA fully concurred with
recommendations 2, 3, 5, and 6, and partially concurred with recommendations 1
and 4. FAA’s planned actions for recommendations 2, 3, 4, and 5 met the intent of
our recommendations and included reasonable timeframes for implementation.
However, we are requesting that FAA reconsider its response or provide additional
information for recommendations 1 and 6, as detailed below.

For recommendation 1, FAA stated that there would be legal and data
compatibility concerns with integrating ATSAP-reported losses of separation into
its baseline of total separation losses. Further, the Agency stated that TARP
captures the vast majority of separation losses and has proven to be the best
solution for establishing a new baseline. We agree that the process of fully
implementing TARP has generated significantly more data than FAA previously
had available. However, FAA is assuming that there is a virtually 100 percent
overlap between ATSAP-reported losses and TARP-detected losses, 27 which we
question as we are not aware of any effort by FAA to reconcile ATSAP and TARP
data. Without this reconciliation, FAA cannot be assured that ATSAP data are
being captured in the Agency’s counts of losses of separation. FAA also did not
provide a rationale for its exclusion of these data, nor has it clarified the legal
impediments to integrating ATSAP-reported losses of separation into its total
count of separation losses. Furthermore, there are several air traffic facilities with
equipment that is not compatible with TARP, including in Honolulu, HI; San Juan,
PR; Twin Falls, ID; and Helena, MT. To determine losses of separation at these
locations, FAA may rely on manual reporting by controllers, which is less
effective, as we have pointed out in our prior work. Therefore, in our opinion,
FAA is missing an opportunity to establish a complete and accurate baseline of
separation losses by not including ATSAP-reported losses in its count, and we
request it reconsider its position on this recommendation.



27
   FAA does not analyze and report all separation losses that are flagged by TARP. FAA Service Area staff investigate
losses of separation identified by TARP of less than 70 percent (i.e., when less than 70 percent of the separation
between aircraft was maintained).
                                                                              16


For recommendation 6, FAA stated that it believes it has met the intent of our
recommendation because its Risk Analysis Process (RAP) and yearly
identification of the Top 5 hazards in the NAS use both causal and contributory
factors to develop corrective actions and mitigation strategies. However, FAA did
not specify how its processes have used the specific causal and contributory
factors we included in our recommendation—perception, memory, and training.
As we noted in our report, FAA chose to exclude these factors from its corrective
action plans because it considered them to be “contextual.” Therefore, to ensure
that FAA’s response meets the full intent of our recommendation, we request that
FAA provide us with more information on how RAP uses these factors in its
mitigation strategies.

ACTIONS REQUIRED
We consider recommendations 2, 3, 4, and 5 resolved but open pending the
completion of the planned actions. We also consider recommendations 6 resolved
but open pending receipt of supporting documentation of FAA’s actions taken. For
recommendation 1, we request that FAA reconsider its position. In accordance
with Department of Transportation Order 8000.1C, we request that FAA provide
us this additional information within 30 days.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Scott Macey, Program Director, at (415) 744-0434.

                                       #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                                                   17


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. We conducted this performance audit from June
2011 through December 2012, which included site visits to FAA Headquarters and
air traffic facilities nationwide (see exhibit B).

To evaluate the effectiveness of FAA’s policies and procedures to collect,
investigate, and report separation losses, we interviewed FAA Headquarters
officials and analyzed FAA orders, data, and reports on losses of separation. In
addition, we interviewed officials and analyzed information at the 30 facilities we
contacted to evaluate these issues. We visited or contacted 9 of 21 nationwide Air
Route Traffic Control Centers (ARTCC) within the continental United States,
11 of 28 stand-alone Terminal Radar Approach Control (TRACON) facilities, 2 of
513 Air Traffic Control Towers, 4 of 81 Flight Standards District Offices
(FSDO), 28 3 of 3 ATO Service Areas, and 1 of 20 Certificate Management Offices
(CMO). 29 Specifically, the OIG statistician selected a stratified random sample of
11 (6 TRACON and 5 ARTCC) out of 41 TRACON and ARTCC facilities that
had increases in operational errors from fiscal years 2009 to 2010. We focused on
ARTCCs and TRACONs in our sample because these facilities had the largest
increases in operational errors between fiscal years 2009 and 2010. Over this time
period, errors at TRACONs increased 86 percent while errors at ARTCCs
increased 39 percent. We visited 10 of these facilities and had a teleconference
with the remaining facility. 30 We also visited 19 other facilities to obtain a broader
range of information about operations nationwide including facilities located near
our sample sites. A list of the sample sites and additional sites we visited in is
exhibit B.

To determine various factors that contribute to increases in reported losses of
separation, we interviewed FAA Headquarters officials as to why operational
errors increased from fiscal year 2009 to 2010. We also interviewed officials and
analyzed information at the 30 facilities we contacted to identify any other
contributing factors.

To assess the effectiveness of FAA’s efforts to mitigate operational errors, we
analyzed mitigations and corrective action plans from FAA Headquarters.
28
   FSDOs are part of FAA’s Flight Standards Service, which promotes safe air transportation by setting the standards
for certification and oversight of airmen, air operators, and air agencies.
29
   CMOs specialize in areas such as the certification, surveillance, and inspection of major air carriers.
30
   We teleconferenced with Anchorage Air Route Traffic Control Center.


Exhibit A. Scope and Methodology
                                                                                18


Furthermore, we obtained and reviewed mitigation strategies at the 30 facilities we
contacted. At both FAA headquarters and the 30 contacted facilities, we
interviewed officials for their perspective on operational error mitigation
strategies.




Exhibit A. Scope and Methodology
                                                                19


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
Washington Air Route Traffic Control Center (ZDC)
Seattle Air Route Traffic Control Center (ZSE)
Fort Worth Air Route Traffic Control Center (ZFW)
Atlanta Air Route Traffic Control Center (ZTL)*
New York Air Route Traffic Control Center (ZNY)*
Chicago Air Route Traffic Control Center (ZAU)
Cleveland Air Route Traffic Control Center (ZOB)*
Boston Air Route Traffic Control Center (ZBW)*
Anchorage Air Route Traffic Control Center (ZAN)*

Potomac Consolidated Terminal Radar Approach Control (PCT)
Seattle Terminal Radar Approach Control (S46) *
Northern California Terminal Radar Approach Control (NCT)
Southern California Terminal Radar Approach Control (SCT)*
Houston Terminal Radar Approach Control (190)*
Dallas/Fort Worth Terminal Radar Approach Control (DIO)*
Las Vegas Terminal Radar Approach Control (L30)*
New York Terminal Radar Approach Control (N90)*
Chicago Terminal Radar Approach Control (C90)
Cleveland Terminal Radar Approach Control (CLE)
Boston Consolidated Terminal Radar Approach (A90)

Seattle-Tacoma Air Traffic Control Tower (SEA)
Los Angeles International Air Traffic Control Tower (LAX)

Dallas Fort Worth Flight Standards District Office (DFW FSDO)
Atlanta Flight Standards District Office (ATL FSDO)
New York City Flight Standards District Office (NYC FSDO)
Chicago O'Hare Flight Standards District Office (ORD FSDO)

Delta Certificate Management Office (Delta CMO)

FAA Western Service Area
FAA Central Service Area
FAA Eastern Service Area

*This facility was part of our 11 facility sample.




Exhibit B. Organizations Visited or Contacted
                                                                                                  20


EXHIBIT C. DOT OIG REPORTS ON OPERATIONAL ERRORS
SINCE 2000
Issue Date and Title        Key Findings
March 24, 2009              Control and oversight weaknesses in FAA’s process for reporting and
FAA’s Process for           investigating losses of separation caused by pilots and controllers.
Reporting and               These weaknesses were due in part to inadequate FAA guidance for
Investigating Operational   investigating these events and insufficient staffing in the Air Traffic
Errors (AV-2009-045)        Organization (ATO) Safety Office. Further, FAA’s processes did not
                            ensure that all losses of separation were accurately reported across
                            terminal and en route facilities or consistently evaluated for severity.
April 18, 2008              Air traffic managers at the TRACON intentionally misclassified
OIG Investigation-          operational errors as either pilot deviations or “non-events” to reduce
Alleged Cover-up of         the number of operational errors reported at that location. FAA’s
Operational Errors at       oversight processes failed to uncover this practice despite FAA’s prior
DFW TRACON                  assurances that it would not allow operational errors to go
(CC-2007-083),              unreported.
February 14, 2005           FAA DFW TRACON managers had failed to investigate, and
Alleged Cover-up of         therefore, underreported operational errors over a seven-year period.
Operational Errors at       In short, management created an atmosphere of self-reporting and
DFW TRACON                  other incentives that discouraged employees from identifying
(CC-2004-067)               operational errors.
September 20, 2004       At facilities that handle the most air traffic, FAA relies on supervisors
Controls Over the        and controllers to self-report when errors have occurred and does not
Reporting of Operational have a system in place to verify that this reporting process is reliable.
Errors (AV-2004-085)
April 3, 2003               Despite FAA progress in reducing operational errors and runway
Operational Errors and      incursions, the number of incidents remained high. On average, one
Runway Incursions           runway incursion and three operational errors occurred each day in
(AV-2003-040)               fiscal year 2002. High-risk incursions and errors occurred, on
                            average, once every 10 days and 8 days, respectively.
December 15, 2000           FAA does not determine the severity of operational errors, and
Actions To Reduce           controllers and managers have different perceptions of actions taken
Operational Errors and      when operational errors occur. According to the National Air Traffic
Deviations Have Not         Controllers Association, controllers face serious disciplinary actions
Been Effective              for committing operational errors. Facilities with the most reported
(AV-2001-11)                operational errors over the previous 5 fiscal years lacked adequate
                            plans to reduce operational errors. Further FAA has not provided
                            provide strong national oversight to effectively reverse the upward
                            trend in operational errors.




Exhibit C. DOT OIG Reports on Operational Errors Since 2000
                                                                        21



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                           Title

Scott Macey                                    Program Director
Stephen Jones                                  Project Manager
Kevin Montgomery                               Senior Analyst
Judy Nadel                                     Senior Auditor
Susan Crook                                    Analyst
Karen Sloan                                    Communications Officer
Andrea Nossaman                                Senior Writer
Audre Azuolas                                  Writer-Editor
Petra Swartzlander                             Senior Statistician
Megha Joshipura                                Statistician




Exhibit D. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                         22



                    Federal Aviation
                    Administration

Memorandum
Date:            January 25, 2013
To:              Jeffrey B. Guzzetti, Director, Assistant Inspector General for Aviation and
                 Special Program Audits
From:            H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:         Response to Office of the Inspector General (OIG) Review of FAA’s Efforts to
                 Track and Mitigate Air Traffic Losses of Separation


The Federal Aviation Administration (FAA) through its Air Traffic Organization (ATO) is
committed to conducting safe operations throughout the Nation Airspace System (NAS).
Tracking data relating to aircraft operations that do not maintain standard separation distances is
an important component of risk assessment in the NAS and is used to develop appropriate
corrective actions when significant risks are identified.

In January of 2012, the ATO implemented a significant change in the way safety data, including
losses of separation, are reported, analyzed, and acted upon. These changes improve utilization
of the Air Traffic Safety Action Program (ATSAP), which is a non-punitive reporting system, as
well as the Traffic Analysis and Review Program (TARP), which electronically identifies losses
of separation. As a result, the ATO has seen a dramatic increase in reporting and now has
available unprecedented amounts of both qualitative safety data, through ATSAP, and
quantitative data from TARP. The validation and analysis processes that have been implemented
have greatly enhanced the agency’s ability to identify and prioritize high risk hazards, which are
addressed through the ATO’s Top 5 program. This program provides a forum for a coordinated
and collaborative approach to identify and mitigate risks through the most effective means
available, including training, procedures, and technological improvements.

The ATO continues to implement enhancements in training, procedures, and technology based
on its use of a dramatically improved reporting, with many new initiatives planned throughout
2013, which offer the potential to further enhance the safety of operations in the NAS.

RECOMMENDATIONS AND RESPONSES

OIG Recommendation 1: Include all losses of separation that are reported under ATSAP, but
unknown to air traffic facilities, in its official count of such events.

FAA Response: Partially-concur. The FAA agrees that knowledge of operational incidents is
crucial to its ability to identify and address safety trends. In order to achieve that goal FAA


Appendix. Agency Comments
                                                                                                  23

successfully developed and is in the process of fully implementing the TARP system that
captures quantitative data relating to the vast majority of occurrences that involve loss of
separation. TARP was fully implemented at all terminal radar facilities in September 2012.
FAA is now developing TARP for En Route facilities, and with implementation targeted for May
2013. TARP has already demonstrated its capability to operate effectively in the terminal
environment, and is generating ten times the amount of data FAA previously had available
relating to loss of separation. Further, the system increases the utility of the data captured by
consolidating the information into a single database available to all facilities. Increased reporting
is a key strategy to improve air traffic safety and TARP has already proven to be the best
solution for the FAA to establish a new baseline of reporting losses of separation. Incorporating
ATSAP data, as recommended would bring about significant legal issues with regard to the use
of this information and introduce considerable data compatibility problems. As a result, FAA is
focused on fully implementing and utilizing the vast amount of new data made available by
TARP, which provides the most accurate available metric for these occurrences.

OIG Recommendation 2: Determine the level of staff and expertise needed at the ATO Service
Areas to effectively implement ATO’s new Orders on investigating losses of separation, audit all
TARP data, and initiate actions to fill those requirements.

FAA Response: Concur. The FAA Air Traffic Organization (ATO) has just completed the
largest and most significant improvements in the last 30 years to the way air traffic control risk
and safety performance are managed in the United States. From the implementation of voluntary
reporting, to electronic detection, the development of standardized risk assessment processes and
the establishment of a proactive safety management system, the ATO is now able to identify
precursors to risk rather than just react to single incidents. Our processes and metrics need to
mature before a proper baseline can be established. We have made commitments to the Office of
the Secretary and the Office of Management and Budget that at the end of FY14 we will have
established sound baseline for metrics based upon about two years’ worth of data. With the
experience developed over that period, FAA will be better able to understand the staffing
requirements for making full and appropriate use of this newly available data. While FAA will
continue to evaluate informally resource requirements over the implementation period, it intends
to conduct a formal staffing study for TARP management and analysis by October 1, 2015.

OIG Recommendation 3: Determine the extent to which ATO has successfully implemented
its new orders (effective January 2012). This determination should include reviews of the quality
of separation loss investigation reports, effectiveness of training, and additional actions or
resources needed.

FAA Response: Concur. The ATO combined its Safety and Technical Training offices into one
service unit in 2012 under the leadership of the Vice President, Safety and Technical Training.
This combination was initiated for the specific purpose of identifying safety issues, evaluating
the effectiveness of training, and collaboratively identifying necessary resources (e.g. training,
staffing, procedures, technological improvements) to improve overall safety in the delivery of air
traffic control services.




Appendix. Agency Comments
                                                                                                24

The Safety directorate’s QA Group is in the final stage of developing a Standard Operating
Procedure (SOP) to address the validation and processing of MORs and EORs for each of the
QA Service Area offices. The QA SOP will be completed in early 2013 and subsequent training
of these procedures will be conducted throughout 2013.

The Safety directorate has initiated the development of a revised QA and Quality Control (QC)
Training Course for ATO personnel to be taught at the FAA Academy. Coordination is currently
ongoing between the Safety and Technical Training directorates to fully define requirements.
This course will include lessons on how to utilize Comprehensive Electronic Data Analysis
Reporting (CEDAR) and provide an overall understanding of the QA and QC processes that have
been implemented.

Additionally, QA staff has conducted visits to the QC Groups in each of the ATO Service Areas
to provide clarification and familiarization with the new Orders, CEDAR and TARP. In support
of these visits, the ATO is in the process of publishing Safety Guidance reflecting best practices
on how to implement the new orders. This guidance is expected to be published by February
2013. In addition, the Air Traffic Oversight Service is planning to audit the implementation of
the new Orders in fiscal year (FY) 2013.

FAA will use the results of these incremental compliance and effectiveness evaluations of the
individual components of its new approach to continue fine tuning its operation of individual
elements of its new safety scheme. It intends to conduct an overall evaluation of the overall
scheme by October 1, 2015, once sufficient data is available to meaningfully evaluate its
performance.

OIG Recommendation 4: Include high-risk TCAS warning events in its Risk Analysis Process
and System Risk Event Rate when the separation between two converging aircraft is maintained
at 66 percent or more.

FAA Response: Partially-concur. The ATO has a well-developed risk analysis process that
reviews events on a prioritized basis in accordance with the risk factors present during an event.
TCAS is one of several safety countermeasures, and its effectiveness or lack thereof is already
part of the analysis process used by the ATO. The ATO will clarify and produce written criteria
for determining which TCAS events represent a high-risk and should be included in the risk
assessment process. It intends to complete these criteria by December 30, 2013.

OIG Recommendation 5: Develop actions to mitigate the following situations identified in the
Risk Analysis Process: (1) poor recovery from loss of separation and (2) losses of separation
involving on-the-job training.

FAA Response: Concur. The ATO is already addressing these issues. The number one hazard
identified in the FY 2013 Top 5 hazards in the NAS was poor recovery after a loss of separation.
As a result, FAA-wide corrective action and monitoring plans have been developed. Hazard
Risk Mitigation is a high priority DOT goal that tracks how well the FAA is doing in
implementing corrective actions on a yearly basis. To meet this goal the FAA has to complete a




Appendix. Agency Comments
                                                                                                 25

minimum of 80% of approved mitigations to address the top five contributing hazards to high
risk events every year.

The ATO does not have data that directly ties the on-the-job training (OJT) program to a specific
increase in risk for losses of separation. However, the ATO plans to gather more information
about such incidents in order to determine whether there is sufficient support provided to OJT
instructors in the current training methodology. The ATO will be amending CEDAR to require
identification of OJT in progress when operational incidents occur. ATO intends to implement
this upgrade by June 2013.

OIG Recommendation 6: Utilize analysis of the causal and contributory factors derived in the
Risk Analysis Process—including perception, memory, and training–to identify the underlying
reasons for separation losses and develop mitigation strategies to address those causes.

FAA Response: Concur. RAP and the yearly identification of the Top 5 hazards in the NAS
utilize both causal and contributory factors to develop corrective actions and mitigation strategies
to address causes for losses of separation in the NAS. Following our Safety Management
System which requires continuous improvement of our processes, the ATO is making
improvements to RAP and other safety programs, such as Search and Rescue and QC, as well as
sharing the ATO’s safety data with Aviation Safety Information Analysis and Sharing for
analysis of air traffic control and aircraft data. Combining air traffic and aircraft data offers
numerous opportunities to improve aviation safety. The FAA believes it has met the intent of
this recommendation and requests that it be closed.




Appendix. Agency Comments
